No. 19- 176
In The

£npttnit %urn* rf % |foibir States
RICHARD DAVID WEISSKOPF
Petitioner,
v.
JEWISH AGENCY FOR ISRAEL, et al
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Second
Circuit
PETITION FOR A WRIT OF CERTIORARI
R. David Weisskopf
Petitioner, pro se
1300 Pennsylvania Ave., NW
Suite 190-610
Washington, DC 20004
(847) 230-4756
16cv7593@gmail.com
Petitioner, pro se
June 24, 2019

I

QUESTION PRESENTED
Congress enacted the Racketeer Influenced and
Corrupt Organizations Act (RICO), 18 U.S.C. §§ 1961-1968
and the Hobbs Act, 18 U.S.C. § 1951 to protect civilians
from collections of unlawful debts, including extortion and
fraudulent activities, by criminal enterprises. In Sedima
S.P.R.L. v. Imrex Corp (1985) this Court held that a
plaintiff can bring a private cause of action for racketeering
patterns, specifically including wire and mail fraud. In
Nabisco vs. European Community (2016) this Court further
clarified that RICO applies extraterritorially for private
civil claims to domestic damages to business and property
in the United States. In Humphrey v. GlaxoSmithKline
PLC,_F.3d _, 2018 U.S. App. Lexis 27433 (3d Cir. Sept.
26, 2018) the Third Circuit applied domestic injury to the
location of the property. Meanwhile, in Armada
(Singapore) PTE Ltd. v. Amcol International, 885 F.3d 1090
(7th Cir. 2018) the Seventh Circuit applied domestic injury
to the location of the plaintiffs residence. In the instant
case, the Second Circuit created a three-way circuit split by
focusing on where the injury (predicate act) originated.
The question presented is:
Whether the appellate court below erroneously held,
in conflict with the decisions of this Court, and in a threeway split with the Third Circuit and Seventh Circuit, that
the Plaintiffs injury to business and property in the United
States resulting from RICO violations including extortion,
mail fraud, and aiding & abetting is insufficient to satisfy
the domestic injury requirement.

II

PARTIES TO THE PROCEEDING
R. DAVID WEISSKOPF,
Plaintiff-Appellant,
DOTAN NEWMAN, EITAN ELIAHU, ELDAD GIDON,
MICHAEL ZAMANSKY, YAKOV BOSSIRA, DAN
SILBERMAN,
Plaintiffs,
JEWISH AGENCY FOR ISRAEL, NEW ISRAEL FUND,
JEWISH FEDERATIONS OF NORTH AMERICA,
NA'AMAT, WOMEN'S INTERNATIONAL ZIONIST
ORGANIZATION, P.E.F. ISRAEL ENDOWMENT
FUNDS, INC., TZIPI LIVNI, SHMUEL CHAMDANI,
NA'AMA BOLTIN, MIRIAM DARMONY, EINAT GILEADMESHULAM, TOMER MOSKOWITZ, CLANIT
BERGMAN, JOHN HAGEE, INTERNATIONAL
FELLOWSHIP OF CHRISTIANS AND JEWS,
JERUSALEM INSTITUTE OF JUSTICE, CARY
SUMMERS, AMERICAN FRIENDS OF BAR-ILAN
UNIVERSITY, JEFFREY ROYER, NOA REGEV, ALON
SALEH, ZEV GABAI, ARIEL LAGANA, ORIT AVIGAIL
YAHALOMI, MICHAEL DUWANI,
Defendants-Appellees

Ill

TABLE OF CONTENTS
QUESTION PRESENTED............................................... i
PARTIES TO THE PROCEEDING................................. u
TABLE OF CONTENTS................................................... hi
TABLE OF AUTHORITIES............................................. v
PETITION FOR WRIT OF CERTIORARI...................... 1
OPINIONS BELOW........................................................... 1
JURISDICTION................................................................. 1
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED......................................................................... 1
STATEMENT OF THE CASE............................... 1

FACTUAL BACKGROUND..................................
REASONS FOR GRANTING THE PETITION...........

3
6

A. Second Circuit’s Policy Arguments and Analogies to
Other Sources of Law Do Not Support Its
Interpretation of RICO or
Hobbs................................................................
6
1) Misapplication of FSIA...........................
7
2) Misapplication of 18 USC §1962 & 1964
13
3) Aiding and Abetting...............................
16
4) Kidnapping............................................. .
16
5) Infliction of Emotional Distress not Dismissed 17
B. The Decision Below Conflicts with Decisions of the
Third and Eighth Circuits on a Fundamental Issue of
the Hobbs Act and its Application to Civil Remedies for
RICO Extortion
18
C. The Circuits are in Acknowledged Conflict over the
Correct Domestic Injury Analysis of Extraterritorial
19
RICO Complaints....................................................
1) Third Circuit Standard Based on Location of
Property................................................................ 20
2) Seventh Circuit Standard Based on Residence of
Plaintiff
21

IV

3) Second Circuit Standard Based on Origin of
Injury..................................................................... 21
D. The Appellate Court Erroneously Affirmed the
Anti-filing Injunction Against the Appellant.......... 23
THIS CASE PRESENTS A RECURRING QUESTION OF
EXCEPTIONAL IMPORTANCE WARRANTING THE
25
COURT’S IMMEDIATE RESOLUTION
28
CONCLUSION........................................
APPENDIX A - Court of Appeals Opinion (March 27, 2019)
la
APPENDIX B - District Court Amended Order (Dec. 28
2018).................................................................................. 12a
APPENDIX C - District Court Order (Dec. 8, 2018)...... 27a
APPENDIX D - Statutory Provisions............................. 43a

V

TABLE OF AUTHORITIES
Cases
11
Al Qaida, supra, 122 F. Supp.3d at 185
Armada (Singapore) PTE Ltd. v. Amcol International, 885
21
F.3d 1090 (7th Cir. 2018)
Baoanan v. Baja, 627F. Supp.2d 155, 162 (S.D.N.Y. 2009)
12
Bashi Abdi Yousuf v. Mohamed Ali Samantar, 699 F.3d
763, 775 (4th Cir. 2012)....................................................... 10
Bender v. City of New York, 78 F. 3d 787 (2d Cir. 1996). 17
Central Bank, 511 U.S. at 177, 191, 114 S.Ct. 1439....... 16
Chuidian v. Philippine Nat’l Bank, 912 F.2d 1095, 1106
12
(9th Cir. 1990)
City of Almaty v. Ablyazov, 2016 U.S. Dist. LEXIS 183338
19
at *19 (S.D.N.Y. Dec. 23, 2016)..................................
Doe I v. Liu Qi, 349 F. Supp.2d 1258, 1280 (N.D.Ca.
2004)............................................................................. 9, 12
Ex Parte Republic of Peru, 318 U.S. 578, 63 S. ct. 793, 87
11
L. Ed. 1014 (1943)
G-I Holdings, Inc. v. Baron & Budd, 179 F. Supp.2d 233,
256 (S.D.N.Y. 2001)........................................................ 14
Howell v. New York Post Co., 81 N.Y. 2d 115, 121, 596
N.Y.S. 2D 350 (1993)...................................................... 17
Humphrey v. Glaxo Smith Kline PLC,_F.3d_, 2018 U.S.
App. Lexis 27433 (3d Cir. Sept. 26, 2018)...................... 20
Larson v. Domestic & Foreign Commerce Corp, 337 US
682, 689-90 (1949)........................................................... 8,9
Leutwyler v. Office of Her Majesty Queen Rania AlAbdullah, 184 F. Supp. 2d 277, 287 (S.D.N.Y. 2001)..... 10
Matar v. Dichter, 563 F.3d 9, 14 (2d Cir. 2009)........ 10, 12
Moriah v. Bank of China, Ltd., 107 F. supp. 3d 272
12
(S.D.N.Y. 2015).........................................................
3
Newman, et al vs Jewish Agency, et al l:16-cv7593
Northeast Women’s Center, inc. v. McMonagle (1989) .... 18

VI

Pennsylvania Association of Edwards Heirs v. Reightenour, 235 f. 3d 839, 843-44 (3d cir. 2000)...................... 16
Pereira v. United States, 347 U.S. 1, 8 (1953)............... 15
RJR Nabisco, Inc. v. European Cmty., U.S. 136 S.Ct. 2090
1, 8, 14, 19, 20, 21, 22
195 L.Ed. 2D 476 (2016)
Samantar v. Yousuf, 560 U.S. 305, 322-324, 130 S. Ct.
11, 12
2278, 176 L. Ed. 2D 1047 (2010)
Sedima S.P.R.L. v. Imrex Corp. 473 U.S. 479, 496, 87
L.Ed.2d 346, 105 S. Ct. 3275 (1985)....................... 6, 13, 15
Sikhs for Justice v. Singh, 64 F. Supp. 3d 190, 193
12
(D.D.C. 2014)............................................................
Taggert v. Costabile, 131 A.D. 3d 243 (2d Dept. 2015).... 17
Tatung Co. Ltd. v. Shu Tse Hsu, 2016 U.S. Dist. LEXIS
22
157450 at *6-7 (C.D.Ca. Nov-14, 2016)..............
Underhill v. Hernandez, 168 US 250, 252 (1897)
7,8
Weisskopfv. Jerusalem Foundation, et al, No. 18-cv-5557
(N.D. III. Jan. 14, 2019)...................................................... 24
Weisskopfv. Marcus, 695 F. App’x 977.............................. 10
Wisdom v. First Midwest Bank of Poplar Bluff, 167 f. 3d
402, 408-09 (8th cir. 1999)
14, 18, 19
Federal Statutes
1, 14
18 U.S.C.§1341.....................................
1
28 U.S.C. § 1254(1)...................... .........

28 U.S.C. §1332 ....................................

7

Foreign Sovereign Immunities Act (FSIA) .... 6, 7, 9, 10, 11
Hobbs Act, 18 USC §1951.......................... 1, 2, 6, 14, 18, 19
Racketeer Influenced and Corrupt Organizations Act
1, 2, 5, 6, 8, 13, 14, 16, 18, 19, 20, 25, 26
(RICO)
18 USC § 1961
.... 1, 13, 19
18 USC §1962
1, 13, 14, 16
18 USC §1964
....... 1, 6, 13
Securities Exchange Act of 1934, 15 U.S.C.§10(b), §78j .. 16
25
Rule 11
Rule 12(b)..................................................
17
3, 24, 25, 27
14th Amendment to the U.S. Constitution

1
PETITION FOR WRIT OF CERTIORARI
Richard David Weisskopf hereby petitions for a writ
of certiorari to review the final decision of the United States
Court of Appeals for the Second Circuit entered in this
action on March 27, 2019.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Second District Docket No. 18-244-cv (L); 18-246-cv
(Con) is reproduced in Appendix A. The amended opinion
of the United States District Court for the Southern
District of New York Case No. 16-cv7593 (December 28,
2017) is reproduced in Appendix B. The original opinion of
the United States District Court for the Southern District
of New York Case No. 16-cv7593 (December 8, 2017) is
reproduced in Appendix C.
JURISDICTION
The final decision of the Court of Appeals was
entered on March 27, 2019. No petition for rehearing was
filed. This court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Appendix D reproduces the full text of 18 U.S.
Code § 1961, 1962, 1964, 1341, 1951; 28 U.S. Code §16021611; Amendment XIV to the U.S. Constitution.
STATEMENT OF THE CASE
This case raises issues of broad and general
importance:
The Second Circuit in this case expressly rejected the
1)
standard allowed by the Third District that permits private
civil cause of action for violations of the Hobbs Act including extortion. Not only is the Second Circuit in
conflict with the Third and Eighth Circuits in the instant
decision, it’s decision is also contrary to this Court’s
precedence in RJR Nabisco v. European Community
concerning mail fraud. There is an akcnowledged conflict
between the circuits on the analysis of domestic injury to

2

business and property in the United States resulting from
extraterritorial violations of the Racketeer Influenced and
Corrupt Organizations Act (RICO). Though the Plaintiff
claimed injury to business and property in the United
States within the instant Complaint that included a
certification to that affect; the Second Circuit concluded
that the plaintiffs, including the Appellant, failed to satisfy
the domestic injury requirement based on an analysis of the
injury’s origin - i.e. where the predicate act occurred.
This issue is a matter of concern to all RICO victims
seeking private civil relief for patterns of racketeering and
violations of the Hobbs Act - especially when plaintiffs
allege domestic injury to business or property. The
outcome of this case affects over 192 million Americans at
risk of falling victim to the fundraising prong of the
racketeering scheme in this case and 80,000 Americans who
have already fallen victim to the extortion prong of the
same scheme to date as described herein.
The District Court’s anti-filing injunction against the
2)
Appellant was so harsh that it interferes with the
Appellant’s access to courts even in matters completely
unrelated to the instant Complaint. The Second Circuit
admitted the standard of review as, "accepting as true all
factual claims in the complaint and drawing all reasonable
inferences in the plaintiffs favor" and that the Complaint
was filed pro se. On August 7, 2017 an attorney filed an
appearance on behalf of the Appellant and the other
plaintiffs. Thereafter the attorney requested leave to
amend the complaint. Both the District Court and the
Second Circuit ignored the requests to amend. Instead the
Second Circuit upheld the dismissal and improperly blamed
the Appellant for seven other lawsuits that had nothing to
do with him while ignoring lawsuits that he won and
settled. This resulted in a distorted portrayal that the
appeal was frivilous and baselessly claimed that the
Appellant has a "has a demonstrable history of vexatious

3
and baseless litigation against defendants". The court
upheld an anti-filing injunction against the Appellant that
goes far beyond litigation against the Appellees. Such
abuse of power violates the Appellant’s 14th Amendment
right to due process.
This issue is a matter of concern to all pro se
litigants, including those who retain attorneys during
litigation. The 14th Amendment entitles litigants, including
pro se litigants, to have fair and equal access to the court
without fear that a court would abuse its power to hinder
access to the court system. When a pro se litigant retains
councel during litigation, as happened in the instant case,
justice demands granting the litigant’s attorney an
opportunity to amend the complaint to cure
misunderstandings as happened in the instant case.
FACTUAL BACKGROUND
Appellant is a natural-born American citizen who
also holds dual Israeli citizenship. On September 28, 2016
a group of pro se plaintiffs, including the Appellant, filed
the original complaint (Dotan Newman, et al vs Jewish
Agency, et al l:16-cv7593) in the District Court for the
Southern District of New York. The original complaint
alleged that Appellees are responsible for orchestrating one
of the largest ongoing racketeering schemes in American
history whereby they channel billions of dollars from all
over the United States to fund systematic international
extortion and enslavement of 80,000 American victims
since 2009, including the Appellant.
According to the original complaint the Appellees exploit a
mechanism in Israel under color of apparent authority
DNtfn (the Debt Collections Office) to extort
called
bogus debts or paid-off debts from victims who currently or
previously have contact with Israel. In some cases, the
victims have nor further contact with Israel and some even
live their lives exclusively in the United States. Victims

4
and their assets can be located anywhere in the world,
including the United States. When victims or their assets
are located outside direct reach of the Appellees, they resort
to strong-arm tactics on families of the victims. In the
Appellant’s specific case, one of the Appellees contacted his
elderly relatives who were located exclusively in the United
States in the middle of the night to harass them without
any justification in law or in fact. The exclusive purpose
was to traumatize them as a means of inflicting emotional
distress upon the Appellant and extort his money, business,
and property located in the United States. The trauma
resulted in two hospitalizations of two elderly relatives of
the Appellant in the United States - one of whom died.
On January 23, 2017 the plaintiffs filed an amended
complaint pro se to add parties and clarify the two-prong
approach employed by the Appellees to defraud wellmeaning Americans into donating to help “at-risk” Israelis
when they were actually funding the Appellees’
international extortion racket. This is the Fundraising
prong of the scheme.
The Extortion prong of the scheme usually happens
in Israel where the Debt Appellees act under color of law to
create fictitious debts against targeted victims using kickbacks from the Fundraising Appellees in exchange for
preferential status as service providers. Their tactics
include forcing victims to pay for “services” from the
Fundraising prong. This despite the fact that well-meaning
donors across the United States already covered the costs
of such “services”. Though the Debt Appellees act under
color of law, they also act in defiance against court orders
from both Israeli courts and American courts.
The Complaint explained how the Appellant was
specifically defrauded into donating to the Fundraising
prong of the scheme before falling victim to the Extortion
prong of the scheme. Under this prong the Appellees
reached back across the ocean to damage business and

5
property belonging to the plaintiffs and specifically the
Appellant. Thus, the entire scheme went full circle
beginning with defrauding American donors in the United
States, including the Appellant, to fund an extortion racket
in Israel that reaches back to American soil to harass
victims and their American family members and cause
damage to business and property located in the United
States. Appellant specifically fell victim to both prongs of
the entire scheme.
Plaintiffs also filed certifications that itemized their
loss to business and property located in the United States.
In a status conference on January 23, 2017 the judge
encouraged the plaintiffs to find an attorney to represent
them. The Appellant took this advice from the judge to
heart. He searched for an attorney ready, willing, and able
to represent him and other plaintiffs in the pending RICO
case in SDNY. On August 7, 2017 Saul Roffee entered an
appearance as counsel for the plaintiffs and requested leave
to amend the complaint.
The District Court ignored Roffee’s request and
instead dismissed the complaint on December 8, 2017 with
an anti-filing injunction against the Appellant and another
plaintiff. Thereafter, the District Court amended its
decision on December 28, 2017 that failed to resolve the
unfair anti-filing injunction. It additionally failed to
address the request by Appellant’s counsel to amend the
complaint despite the District Court’s suggestion to the
Appellant to retain an attorney precisely to assist with such
issues as amending the complaint.
Appellant, represented by Roffee, was among the
plaintiffs who appealed the dismissal and anti-filing
injunction to the Second Circuit on January 24, 2018. The
Second Circuit affirmed both the dismissal and the anti­
filing injunction on March 27, 2019.
In its decision, the Second Circuit mischaracterized
the complaint as arising “from their dissatisfaction with

6
the outcome of divorce proceedings and subsequent efforts
by their ex-wives, with the assistance of the charitable
organizations, to collect child support from them.” This
misrepresentation was the basis for an argument that the
Israeli Appellees acted in an official capacity for the Israeli
government and were therefore entitled to immunity under
the Foreign Sovereigns Immunity Act (FSIA).
The Second Circuit further argued that the plaintiffs,
including the Appellant, failed to satisfy the domestic
injury requirement under 18 USC §1964 and argued that
there is no private cause of action for aiding and abetting
RICO; nor that 18 USC §1951 allows for private cause of
action for extortion or mail fraud. The Second Circuit did
not respond to the causes of action related to infliction of
emotional distress.
/
Finally, the Second Circuit argued that the Appellant
had no reasonable expectation of prevailing and therefore
upheld the District Court’s anti-filing injunction.
REASONS FOR GRANTING THE PETITION
A. Second Circuit’s Policy Arguments and
Analogies to Other Sources of Law Do Not Support
Its Interpretation of RICO or Hobbs
The original complaint pled that the Appellees,
through an association in fact, engaged in predicate acts as
defined in the RICO statute in a pattern of racketeering
activity with plaintiffs, including the Appellant, suffering a
domestic harm. Among the predicate acts claimed were
extortion and mail fraud in a pattern of racketeering. That
is a claim under RICO. Sedima S.P.R.L. v. Imrex Corp. 473
U.S. 479, 496, 87 L.Ed.2d 346,105 S. Ct. 3275 (1985).
The Second Circuit mischaracterized the Complaint
as will be discussed below in Section D. This
mischaracterization was the Second Circuit’s foundation
for its arguments and analogies to follow. Much of the

7
sources in law do not support the Second Circuit’s
arguments when properly characterizing the complaint.
1) Misapplication of FS1A
Firstly, the Second Circuit invoked the Foreign
Sovereign Immunities Act, 28 U.S.C.A. §1332 et.seq to
dismiss the Complaint. The logic was that, pursuant to
Underhill v. Hernandez, 168 US 250, 252 (1897) the
Appellees in the instant case were Israeli officials acting
entirely within Israel under Israeli authority. However one
of the Plaintiffs, Eitan Eliahu, is an American citizen and
resident of California since 1997. He has not had
jurisdictional contact with Israel for 20 years - which did
not stop the Appellees from reaching across the ocean
without any basis in law or fact to run the Extortion prong
of their racket on him in California and in defiance of court
orders issued California Superior Court that has personal
jurisdiction over Plaintiff Eliahu.
Likewise several other Plaintiffs, including the
Appellant, are American citizens with residences in the
United States prior to the Appellees’ patterns of
racketeering that damaged their business and property in
the United States, including their ability to return to their
homes in the United States. In the Appellant’s specific
case, the complaint adds that the Appellees reached across
the ocean and traumatized his elderly relatives in the
United States causing the wrongful death of his
grandmother who had never been outside the United States
nor had jurisdictional contact with Israel. Her death
resulted from the Appellees reaching out of the Israeli
territory to terrorize the Appellant’s elderly relatives in the
United States.
Thousands of other Americans similarly situated fall
victim to the Extortion prong of the Appellees’ racketeering
scheme. Since the Appellees regularly reach across the
ocean for both prongs of their scheme to both extort and

8
defraud Americans out of business and property located in
the United States, the Second Circuit misapplied Underhill
v. Hernandez to this case. Underhill v. Hernandez applies
to official acts by foreign officials acting within their official
capacities and entirely within their own territories. (This is
before RJR Nabisco, Inc. v. European Cmty., U.S. 136 S.Ct.
2090, 195 L.Ed. 2D 476 (2016) clarifies that RICO
violations cannot damage business or property located in
the United States.) The instant Complaint details
repeatedly how the Appellees reached across the ocean to
traumatize family members in the United States and
damage business and property of victims in the United
States.
The Second Circuit reasoned, “even if challenged
conduct was improper under Israeli law, there is no doubt
that the conduct was official in nature” pursuant to Lar­
son v. Domestic & Foreign Commerce Corp, 337 US 682,
689-90 (1949). This is based on the faulty assumption that
the Appellees had any authority to create invalid debts in
the first place. No court in the United States or Israel
granted authority to any of the Appellees to create non-ex­
istent debts and then collect such unlawful debts in defi­
ance of court orders both in Israel and in the United
States.
The instant Complaint alleges repeatedly that the
Appellees generated bogus and unlawful debts in the Ex­
tortion prong of their scheme and even acted in defiance of
explicit court orders. For example, the Complaint alleges
that the Appellees created a non-existent “child support”
debt against the Appellant under color of law and against
court orders that they cease and desist. In fact, as recently
as May 26, 2019 the family court in Jerusalem (with juris­
diction over child support debts in the Jerusalem area) is­
sued a cease-and-desist order against the Appellees’ unlaw­
ful collection activities against the Appellant - specifically
to cease issuing any arrest warrants against him. Despite

9
this court order, the Appellees still have an unlawful arrest
warrant out for the Appellant “for child support” as of
June 11, 2019 in an apparent attempt to obstruct his abili­
ty to file this petition to this Court.
In Larson v. Domestic & Foreign Commerce Corp
this Court stated:
“If the actions of an officer do not conflict with the
terms of his valid statutory authority, then they are
actions of the sovereign, whether or not they are tor­
tuous under general law, if they would be regarded
as the actions of a private principal under the nor­
mal rules of agency. A government officer is not
thereby necessarily immunized from liability if his
action is such that liability would be imposed by the
general law of torts.”
Even if the Appellees in this case were foreign officials,
they are not entitled to immunity pursuant to this Court’s
precedence in Larson v. Domestic & Foreign Commerce
Corp when they act outside alleged official capacities and
even in defiance of valid court orders.
The fact that the Appellees act under color of law
does not mean that they have any jurisdiction whatsoever
over the Appellant or any other American who is similarly
situated. The Second Circuit stated, “FSIA protects indi­
viduals acting within their official capacity as officers of
corporations considered foreign sovereigns.” However, the
Appellees could not possibly be acting in an official capaci­
ty when they create unlawful non-existent debts as evi­
denced by cease-and-desist court orders against them.
Larson v. Domestic & Foreign Commerce Corp itself stipu­
lates that they may be subject to liability that would be im­
posed by the general law of torts in such cases.
Where a defendant acts outside his authority and
those acts reach the United States, there is jurisdiction.
Doe I v. Liu Qi, 349 F. Supp.2d 1258, 1280 (N.D.Ca. 2004).
The Appellate court ignored that the Complaint pled spe-

10
cific acts of fraud outside the Appellees’ authority, that
they are using apparent authority to engage in acts they
are not actually authorized to do. The Complaint spelled
out specific wrongful acts of Appellees not within the scope
of their authority, and Appellees have not demonstrated
that the acts alleged are actually within the scope of their
authority. The focus is on those acts, not the status.
Matar v. Dichter, 563 F.3d 9, 14 (2d Cir. 2009). In fact the
District Court admitted, “However, an official is ’not enti­
tled to immunity under the FSIA for acts that are not com­
mitted in an official capacity,”’ in its original order dated
December 8, 2017 and then deleted the entire paragraph
containing this admission in its amended order dated De­
cember 28, 2017.
The District Court also stated in its original order
dated December 8, 2017:
“Plaintiffs contend that no such immunity applies
here because the Israeli Officials’ alleged actions
went “beyond the scope of [their] official responsibil­
ities.” Leutwyler v. Office of Her Majesty Queen Rania Al-Abdullah, 184 F. Supp. 2d 277, 287 (S.D.N.Y.
2001). Acts exceeding the scope of an official’s duties
are usually those of “a personal and private nature.”
Leutwyler, 184 F. Supp. 2d at 287. The focus, in de­
termining whether the Israeli Officials’ actions were
properly within the ambit of their official duties,
should be on “the individuals’] alleged actions,
rather than the alleged motives underlying them.”
Leutwyler, 184 F. Supp. 2d at 287.”
This paragraph was likewise deleted in the amended order
dated December 28, 2017.
It is beyond doubt that the Israeli government does
not countenance the creation of fictitious debts, fictitious
charges and then the imposition of significant penalties
based upon those charges. In Weisskopfvs. Marcus, et al,
695 F. App’x 977 the State of Israel via the Israeli Ministry

11
of Justice provided a written waiver surrendering jurisdic­
tion to the American court. At issue was a former judge
and to social workers who were forced into early retire­
ment for hate-crime violations that exceeded the authori­
ties of their offices. Though the defendants in that case
claimed to request a suggestion of immunity from the
State Department they never filed the State Department’s
response. Neither the Israeli authorities nor the American
authorities suggested FSIA immunity for Israeli defen­
dants who acted outside their authorities.
The law is clear that FSIA does not apply to individ­
uals of a foreign state, but the state itself. Samantar v.
Yousuf, 560 U.S. 305, 322-324, 130 S. Ct. 2278, 176 L. Ed.
2d 1047 (2010). Instead, for individuals, it is subject to
common law. Under common law, there is a two-step pro­
cedure. The first step is for the diplomatic representative
of the sovereign to request a "suggestion of immunity"
from the United States Department of State. Ex Parte Re­
public of Peru, 318 U.S. 578, 63 S. ct. 793, 87 L. Ed. 1014
(1943). If the Department of State grants the request, then
the court may, but is not required to, surrender jurisdic­
tion. In making the determination, the court "inquires
whether the ground of immunity is one which is estab­
lished policy of the State Department to recognize." Ex
Parte Republic of
, 318 U.S. 578, 587, 63 S. Ct. 793, 87 L. Ed. 1014 (1943); Al
Qaida, supra, 122 F. Supp.3d at 185. Appellees have
claimed that they sought a suggestion of immunity from
the Department of State but have neither put forth evi­
dence of same nor indicated whether there was a response.
Had they gotten the suggestion that they claimed to have
requested from the State Department, there is no doubt
they would have shared it with the court. Such a grant or
denial would make clear what the United States policy is
regarding this action. The fact that the Appellees never
produced the suggestion of immunity that they sought

12
from the State Department speaks volumes about their
lack of immunity in this matter.
In making a decision as to whether immunity ap­
plies under common law, the court looks at two types of
immunity, status-based immunity and conduct based im­
munity, namely immunity for official acts. Moriah v. Bank
of China, Ltd., 107 F. supp. 3d 272 (S.D.N.Y. 2015); Sikhs
for Justice v. Singh, 64 F. Supp. 3d 190, 193 (D.D.C. 2014).
For conduct-based immunity, the person seeking immunity
seeks immunity for acts performed on behalf of the state
during their tenure in office. Matar v. Dichter, 563 F.3d 9,
14 (2d Cir. 2009). "[T]o determine the scope of a foreign of­
ficial’s immunity, the relevant inquiry focuses on the offi­
cial’s acts, and not the official’s status." Moriah, supra, at
277. A foreign official may assert immunity for official acts
performed within the scope of his duty, but not for private
acts where "the officer purports to act as an individual and
not as an official, [such that] a suit directed against that
action is not a suit against the sovereign." Bashi Abdi
Yousuf v. Mohamed Ali Samantar, 699 F.3d 763, 775 (4th
Cir. 2012), quoting, Chuidian v. Philippine Nat’l Bank,
912 F.2d 1095, 1106 (9th Cir. 1990).
Where a foreign official acts beyond his or her au­
thority, the law is clear that conduct-based immunity is
does not apply. Doe 1 v. Liu Qi, 349 F. Supp.2d 1258, 1280
(N.D.Ca. 2004); Baoanan v. Baja, 627 F. Supp.2d 155, 162
(S.D.N.Y. 2009) (Diplomat’s immunity only applies to acts
in the exercise of diplomatic function). The Appellate
Court failed to parse out the actions alleged in the Com­
plaint. If a victim did not owe a debt, then Appellees had
no authority over him. Where an Appellee recorded a
nonexistent debt on the Debt Collections Office books to
create a nonexistent authority and basis for that Appellee
to act, that is beyond the authority of the Appellee and not
an official act. For Appellees to knowingly impose penalties
against victims, including the Appellant, over debts they

13
know are fictitious or could be paid if the victim could ac­
cess his funds and blocked that ability, such acts go beyond
the authority of the Appellees. Further, the official must
demonstrate that the actions at issue were pursuant to the
performance of their duties and within their authority.
There is no such showing here.
2) Misapplication of 18 USC §1962 & 1964
As for the Fundraising Appellees, the Appellate
Court claimed that there is no private cause of action for
aiding & abetting RICO, mail fraud or extortion under 18
USC §1962. Under such a misapplication of both RICO
sections by the Appellate Court the Complaint’s causes of
action related to 18 USC §1962 would not allow the plain­
tiffs to claim civil damages under 18 USC §1964. However,
this Court ruled that to state a RICO claim, the Complaint
must show “(1) conduct (2) of an enterprise (3) through a
pattern (4) of racketeering activity.” Sedima, S.P.R.L. v.
Imrex Co., Inc., 473 U.S. 479, 496, 105 S.Ct. 3275, 87
L.Ed.2d 346 (1985) (footnote omitted).
Mail fraud, aiding & abetting, and extortion are de­
fined in §1961 as predicate acts. They are therefore forbid­
den patterns of racketeering activities under §1962(b), (c)
and (d). Therefore a plaintiff has a right to seek relief for
such causes of action under §1964. If Congress did not in­
tend to include these as “pattern of racketeering activity”
under §1962(a), then the Appellate Court should have
granted the Appellant’s multiple requests to amend the
Complaint. He could have easily cured such a defect in the
stated cause of action to more accurately reflect Congress’
intent forbidding pattern of racketeering activity under
§ 1962(a). Likewise if Congress did not intend “any person
employed by or associated with any enterprise” to engage
in aiding and abetting under § 1962(c) nor conspiracy un­
der §1962(d) then the Appellate Court should have granted
the Appellant’s multiple requests to amend the Complaint.

14
He could have easily cured such a defect in the stated
cause of action to more accurately reflect Congress’ intent
under §1962(c) and (d). In RJR Nabisco, Inc. v. European
Cmty., U.S. 136 S.Ct. 2090, 195 L.Ed. 2D 476 (2016) this
Court stated explicitly that mail fraud, “would seem to fall
well within what Congress meant to capture in enacting
RICO.”
In reaching its determination, the Appellate Court
misapplied Wisdom v. First Midwest Bank of Poplar Bluff,
167 f. 3d 402, 408-09 (8th cir. 1999). In Wisdom v. First
Midwest Bank of Poplar Bluff the Eighth Circuit explicitly
reasoned that RICO mail fraud and extortion are legiti­
mate private civil causes of action under RICO. The prob­
lem was the plaintiffs in that case failed to demonstrate an
ongoing pattern of racketeering activity. The Eighth Cir­
cuit therefore turned to 18 U.S.C.§ 1341 and 18
U.S.C.§1951 to examine stand-alone civil causes of action
for mail fraud and extortion under relevant federal crimi­
nal statutes. Not only does the Second Circuit’s examina­
tion conflict with the Third Circuit as will be discussed in
Section B, it is also irrelevant to the instant Complaint
that alleges an ongoing pattern of racketeering activity for
more than 10 years. Lastly, the Eighth Circuit still grant­
ed the plaintiffs leave to amend their complaint with a
clear explanation that would allow the plaintiffs to cure de­
fects in an amended complaint. The Second Circuit failed
to extend a similar opportunity to the plaintiffs in the in­
stant case.
In order to plead extortion pursuant to the Hobbs
Act a plaintiff must plead "the obtaining of property from
another, with his consent, induced by a wrongful use of ac­
tual or threatened force, violence or fear, or under color of
official right.” G-I Holdings, Inc. v. Baron & Budd, 179 F.
Supp.2d 233, 256 (S.D.N.Y. 2001). In addition to being a
claim for relief, and there being a civil claim under New
York and Federal law, it is a predicate act. Appellant plead-

15
ed that Debt Appellees, through their apparent authority,
inter alia, to freeze bank accounts, for the arrest of Appel­
lant and others similarly situated, barring them from leav­
ing Israel, and harassing and threatening their family
members in the United States, Appellees extorted substan­
tial sums from Appellant and others similarly situated that
went directly to certain Appellees and indirectly to others.
Such funds were provided solely due to the threats and in­
timidation by Appellees directed to victims - including the
Appellant.
In order to plead a claim for mail fraud, one must
plead a scheme to defraud plaintiffs through false pretens­
es, the making of false representations and the use of
mails or wires in either the transmission of funds or the
false representations. It is sufficient that, if it is reason­
ably foreseeable that a fraud is being committed by the
acts in the ordinary course of business, even if the mailing
or wire themselves are not fraudulent, there is a claim for
mail and wire fraud. Pereira v. United States, 347 U.S. 1, 8
(1953). This Court specifically addressed mail fraud in
Sedima S.P.R.L. v. Imrex Corp. 473 U.S. 479, 496, 87
L.Ed.2d 346, 105 S. Ct. 3275 (1985).
There need not be an affirmative misrepresentation
in order to plead mail and wire fraud. The failure to dis­
close is sufficient. In the instant case, the Complaint
pleaded that the fees, fines and other charges attributed to
the plaintiffs, including the Appellant, are materially false
and fictitious. The Complaint pleaded that the Fundrais­
ing Appellees used mail and wires to send and receive
funds using the fictitious charges brought against-victims,
including Appellant, as fundraising materials. Further­
more, the Complaint alleges that the Fundraising Ap­
pellees used mail and wire to send funds raised fraudu­
lently in the United States to advance the scheme in Is­
rael. Appellant alleged that the mail and wire were used
for the Appellees to communicate among themselves and

16
with others in furtherance of the scheme, and that the Is­
raeli Appellees used the mail and wire to contact Appellan­
t’s family members, send and receive funds and communi­
cate with others.
3) Aiding and Abetting
The Appellate Court additionally relied on Pennsyl­
vania Association of Edwards Heirs v. Reightenour, 235 f.
3d 839, 843-44 (3d cir. 2000) to argue that RICO does not
allow for aiding & abetting. However, the relevant defen­
dant in that case for aiding and abetting was Wachovia
Bank. Nothing in that complaint alleged that Wachovia
Bank actively participated in any RICO activities, but
rather passively “allowed itself to be used as a conduit” to
the alleged RICO scheme. Firstly, such a claim falls within
the securities exception within 18 USC § 1962(a). Second­
ly, the Third Circuit cited this Court in Central Bank, 511
U.S. at 177, 191, 114 S.Ct. 1439, ruling that private aiding
and abetting suits were not authorized by § 10(b) of the
Securities Exchange Act of 1934, 15 U.S.C. § 78j. Such a
scenario is not relevant to the instant case because none of
the Appellees in the instant Complaint are subject to the
Securities Exchange Act of 1934 nor are any allegations in
the instant Complaint subject to the securities exception of
18 USC §1962(a). Lastly, unlike Wachovia Bank in Penn­
sylvania Association of Edwards Heirs v. Reightenour the
instant Complaint alleges that the Appellees were active
participants in the RICO scheme.
____ _____ ________ 4) Kidnapping___ —
— —
In addition, the Complaint alleges kidnapping as a
predicate act. Appellant specifically pleaded that he was
arrested and detained in Israel without a legal or proper
basis. Indeed, Appellant wrote the District Court about
precisely such detention on a false charge of owing funds
through the creation of fictitious debts, the very claims

17
this action is about. This incident happened on September
14, 2017 after the original Complaint was filed. Had the
court granted the requests to amend, kidnapping could
have been added as a predicate act. As recently as June
2019 the Appellees have an arrest warrant against the Ap­
pellant in defiance of a cease-and-desist order from a legit­
imate court of law. It is axiomatic that holding someone
and not allowing him the freedom to leave without proper
judicial authority or real, actual charges is kidnapping. Ap­
pellant alleged that he has been subject to such arrest
without proper judicial or legal basis and without a proper
legal charge, and thus being periodically held against his
will without a proper legal basis.
5) Infliction of Emotional Distress not Dismissed
Of the six causes of action enumerated in the
Complaint, neither the District Court nor the Second
Circuit dismissed two counts of infliction of emotional
distress and therefore improperly dismissed the entire
action, including those two counts, under Rule 12(b). In
fact, both courts had subject matter jurisdiction over such
causes of action and the Complaint did state such claims
clearly enough to be cured in an amended complaint if
necessary.
In order to plead a claim in intentional infliction of
emotional distress, a plaintiff must plead (a) extreme or
outrageous conduct; (b) the intent to cause or the disre­
gard of the substantial probability of causing severe emo­
tional distress; (c) a causal connection between the conduct
and the injury; and (d) severe emotional distress. Taggert
v. Costabile, 131 A.D. 3d 243 (2d Dept. 2015); Howell v.
New York Post Co., 81 N.Y. 2d 115, 121, 596 N.Y.S. 2d 350
(1993); Bender v. City of New York, 78 F. 3d 787 (2d Cir.
1996). Appellant pleaded that Appellees knowingly and de­
liberately interfered with his relationship with his chil­
dren, illegal and/or inappropriate false charges and costs to

18
his accounts and used those acts to issue orders of arrest
and/or barring Appellant from leaving Israel, freezing his
bank accounts so he lack money to live, harass his family,
and other acts specifically designed to put pressure on,
cause extreme stress to and harm Appellant for Appellees’
own purposes and profit. As a direct result of those acts,
Appellant pleaded he suffered extreme emotional distress.
Appellant thus pleaded all four prongs of a pleading for the
intentional infliction of emotional distress. The Court
erred in holding otherwise. Indeed, the Court, in its deci­
sion did not even address these issues.
B. The Decision Below Conflicts with Decisions of
the Third and Eighth Circuits on a Fundamental Is­
sue of the Hobhs Act and its Application to Civil
Remedies for RICO Extortion
Prior to the Appellate Court’s decision in the instant
case, the Third Circuit and Eighth Circuit addressed the is­
sue whether a plaintiff can seek civil relief for extortion
under the Hobbs Act in addition to extortion under RICO.
The Appellate Court observed that in Wisdom v. First
Midwest Bank of Poplar Bluff, 167 f. 3d 402, 408-09 (8th
cir. 1999) the Eighth Circuit did not allow for private civil
action under 18 U.S.C.§1951 et. seq. This was because
there was no justification for allowing the RICO aspect of
the extortion claim in that case to pass without amending
the complaint. The plaintiffs in that case had not estab­
lished an ongoing pattern of racketeering to justify RICO
extortion and therefore the Eighth Circuit granted them
leave to amend their, complaint------ ----- — — ---- —
Prior to Wisdom v. First Midwest Bank of Poplar
Bluff, the Third Circuit had determined that 18
U.S.C.§1951 allows for private civil action in Northeast
Women’s Center, inc. v. McMonagle (1989). This was be­
cause, “Attempted extortion and conspiracy to commit ex­
tortion are crimes under the Hobbs Act, see 18 U.S.C. §

!

19
1951(a), and ’any act which is indictable under [the Hobbs
Act]’ is a predicate offense under RICO. 18 U.S.C. §
1961(1)(B). We thus reject Defendants’ challenges dealing
with the RICO verdict.” Prior to the Eighth Circuit ruling
cited by the Appellate Court, the Third Circuit had already
determined that indictable acts under the Hobbs Act, in­
cluding extortion, create predicate acts under RICO.
Though the Appellate Court stated it was not aware
of “a private cause of action under either federal or state
law” for extortion, mail fraud or aiding & abetting - the
Third Circuit had already weighed in that the Hobbs Act
justifies predicate acts for private causes of action under
RICO. By misapplying Wisdom v. First Midwest Bank of
Poplar Bluff to the instant Complaint (without similarly
granting the plaintiffs’ requests to amend) the Second Cir­
cuit is in conflict with the Third Circuit over the issue
whether the Hobbs Act creates an underlying predicate
acts for civil RICO claims. This conflict is also contrary to
this Court’s observation in RJR Nabisco, Inc. v. European
Cmty:
“that a foreign corporation has operations in the
United States and that one of the corporation’s man­
agers in the United States conducts its U. S. affairs
through a pattern of extortion and mail fraud. Such
domestic conduct would seem to fall well within
what Congress meant to capture in enacting RICO.”
This Court’s above-referenced observation is precisely
what the Appellant alleges in the instant Complaint.
C. The Circuits are in Acknowledged Conflict over
the Correct Domestic Injury Analysis of Extraterri­
torial RICO Complaints
RJR Nabisco, Inc. v. European Cmty., U.S. 136 S.Ct.
2090, 195 L.Ed. 2D 476 (2016) held that a civil RICO claim
must plead a domestic injury. The Amended Complaint
demonstrates that Appellant, in fact, pleaded both a RICO

20
claim and a domestic injury. In addition, Appellant filed a
certification which detailed examples of specific domestic
injuries he suffered clarifying his injuries precisely.
The Appellate Court held that plaintiffs failed to sat­
isfy domestic injury requirement. The only statement why
the plaintiffs’ claim fell short of the domestic requirement
was, “Plaintiffs’ allegations that they suffered business-re­
lated injuries fall short because the alleged injuries lack
the requisite connection to Plaintiffs’ domestic property.”
However, the Second Circuit did not clarify what consti­
tutes a requisite connection. This Court, in RJR Nabisco,
Inc. v. European Cmty held that RICO applies to extrater­
ritorial acts, and even applies to acts that are almost exclu­
sively extraterritorial. Specifically, this Court held that
where the underlying predicate act had an extraterritorial
affect, then a RICO claim and that predicate act stands
even if it is extraterritorial. This Court specifically said
that money laundering predicate acts have extraterritorial
effects and are an appropriate RICO claim. Id., 136 S.Ct. at
2105. The instant complaint pleaded, inter alia, money
laundering as a predicate act, which the Appellate Court
ignored.
1) Third Circuit Standard Based on Location of Property
The Third Circuit analyzed the "domestic injury"
question in Humphrey v. Glaxo Smith Kline PLC,_F.3d
_, 2018 U.S. App. Lexis 27433 (3d Cir. Sept. 26, 2018). It
adopted a multi-factor analysis to identify the location of
the property. When applying this standard to the instant
case, the plaintiffs demonstrated to_the. Second-Circuit___
that the injury to their business and property was domes­
tic. All of the plaintiffs attached certifications that de­
tailed injury to their business and property located in the
United States. All business and property itemized in these
certifications were located within the United States. All of
the plaintiffs, including the Appellant, satisfied the domes-

21
tic injury requirement under RJR Nabisco, Inc. v. Euro­
pean Cmty when applying the Third Circuit’s analysis to
determine the location of the business or property.
2) Seventh Circuit Standard Based on Residence of Plain­

tiff
The Seventh Circuit likewise analyzed the "domes­
tic injury" question in Armada (Singapore) PTE Ltd. v.
Amcol International, 885 F.3d 1090 (7th Cir. 2018). It
adopted a multi-factor analysis to identify the residence of
the plaintiff. When applying this standard to the instant
case, several of the plaintiffs demonstrated to the Second
Circuit that the injury to their business and property was
domestic. Plaintiff Eliahu’s only residence since 1997 was
located in California. In fact, he has had no residence or
assets outside the United States since 1997. Plaintiff Silberman’s residence is also in the United States. The Ap­
pellant alleged that he lost his primary residence in the
United States resulting from the Appellees’ pattern of
racketeering and their stop-exit order prevents him from
returning to his residence in the United States. The Ap­
pellant along with Plaintiffs Eliahu and Silberman demon­
strated residences (and/or loss thereof) in the United
States and therefore satisfied the domestic injury require­
ment under the Seventh Circuit’s method.
Second Circuit Standard Based on Origin of Injury
The Second Circuit’s inquiry into the "domestic in­
jury" question was to determine where the injury occurs.
Appellant pleaded that he has business, property, and bank
accounts in the United States that were negatively impact­
ed by the acts of Appellees, and that, for example, he had to
pay funds from United States bank accounts to Appellees.
The law is clear that such pleading is sufficient. The Appel­
late Court erred in holding that the domestic injury turned
on where the injury (predicate act) originated. Not only

22
did this create a three-way circuit split, it was contrary to
this Court’s standard in RJR Nabisco, Inc. v. European
Cmty that the location of the predicate act is not the deter­
mining factor for domestic injury.
In City of Almaty v. Ablyazov, 2016 U.S. Dist. LEX­
IS 183338 at *19 (S.D.N.Y. Dec. 23, 2016) the Court ob­
served that the determination of where the injury occurs
does not turn on where the predicate acts take place, but
where the injury arose. The Court, citing Tatung Co. Ltd.
v. Shu Tse Hsu, 2016 U.S. Dist. LEXIS 157450 at *6-7
(C.D.Ca. Nov- 14, 2016) held that part of that analysis in­
cludes, not where the plaintiff resides, but where the as­
sets are held or travel through. In Tatung, the Court held
that because the assets in question traveled by way of the
internet to the United States and wired to United States
based banks in order to move money away from the juris­
diction of plaintiff in order to avoid paying judgments,
there was a domestic injury. Here, the Appellant alleged
sufficient domestic injury, and the Court simply did not
consider them. As demonstrated above, Appellant pleaded
the specific acts which took place and provided certifica­
tions demonstrating how the acts affected his domestic as­
sets. Some acts of Appellees may have taken place in Is­
rael, but the harm to the Appellant was felt both in the
United States and in Israel, and implicated Appellant’s
businesses and assets in the United States. Appellant al­
leged virtually all the payments made to the Appellees
came from or used United States assets, and in some cases
required that the transaction or payment go through the
United States.___
___ ______ ______
This Court in RJR Nabisco, Inc. v. European Cmty.
made it clear that defendants need not ever set foot in the
United State for there to be a domestic injury in the Unit­
ed States. These effects could even be acts overseas that
create penalties and require a plaintiff to take assets in
the United States and send them overseas, or loss of em-

23
ployment in the United States. Certifications of the Plain­
tiffs, including the Appellant, spell out specific harms they
have suffered within the United States, and they are spe­
cific harms which include a substantial loss of business
and money. What is clear is that the injury is not where
the acts take place, but where the injury, e.g. loss of as­
sets, occurs - which is the United States in the Appellant’s
case.
D. The Appellate Court Erroneously Affirmed the
Anti-filing Injunction Against the Appellant.
The Appellate Court affirmed the anti-filing injunc­
tion against the Appellant based upon a mischaracterization of the Complaint and mischaracterization of the Ap­
pellant’s litigation history. If a reasonable person could in­
terpret the Complaint as the Appellate Court did; then jus­
tice would have demanded granting the multiple requests
to amend and eliminate confusion.
The decision below mischaracterized the Complaint
as arising “from their dissatisfaction with the outcome of
divorce proceedings and subsequent efforts by their exwives, with the assistance of the charitable organizations,
to collect child support from them.” The lead plaintiff,
Dotan Newman, is happily married with full custody of his
children. The California Superior Court awarded Plaintiff
Eitan Eliahu full custody of his children and ordered his
ex-wife to pay him child support. Plaintiff Yakov Bossira
likewise received full custody of his children from the fami­
ly court in the end. Plaintiffs Eldad Gideon and Michael
Zamansky enjoyed shared custody of their children. The
Appellant and Plaintiff Dan Silberman had visitation
rights and joint guardianship of their children. Both paid
child support several years in advance. Each plaintiff had
a unique story concerning divorce proceedings. The com­
mon denominator was that the Appellees created unlawful
debts without any basis in law or fact and falsely labeled

24
such debts as “child support” to create a color of law for
the unlawful debts.
The decision below further makes a baseless mischaracterization, “Having achieved minimal success in Is­
rael, they seek to find any forum in the United States that
will entertain any one of their claims”. In fact, the Appel­
lant has repeatedly maintained that the Appellees ignore
valid court orders issued both in the United States and in
Israel. The Appellant seeks relief in American courts for
damages he suffered in the United States under American
laws where American courts have jurisdiction. American
courts have determined that they have jurisdiction over
matters that the Appellant filed with them.
The decision below ignores the Appellant’s success­
ful litigation and focuses exclusively on 12 cases that it
blames on the Appellant and concludes that the Appellant,
“has a history of vexatious and baseless litigation against
defendants.” Of the 12 lawsuits itemized in the decision
below, 7 had nothing to do with the Appellant whatsoever.
The fact that other plaintiffs unrelated to each other and
unrelated to the Appellant - yet have similar grievances in
multiple federal courts reinforces that the problem is wide­
spread far beyond the Appellant. It is unjust to punish the
Appellant for the Appellees’ ongoing violations of numer­
ous American laws against numerous victims unrelated to
the Appellant in numerous American jurisdictions.
Four of the remaining five cases related to matters
that happened years before the events that gave rise to the
instant Complaint. They could not be “similar, if not identical” as they involved different sets of facts, different parties, and different laws. The last case, Weisskopfvs.
Jerusalem Foundation, et al, involves three elementary
schools and their donors on matters unrelated to the in­
stant Complaint. The anti-filing injunction at issue here is
the sole reason that the Appellant cannot exercise his 14th

25
Amendment right to access the court for relief in that mat­
ter completely unrelated to the instant case.
The record is bare as to the justification for such a
broad, overarching injunction. The Court simply denies Ap­
pellant his right to seek judicial review of any claim he may
have against anyone - even when he is represented by an
attorney. There is no basis to restrict his 14th Amendment
right so harshly.
There is no evidence whatsoever that Appellant has
been filing frivolous claims “without reasonable expecta­
tion of success”. He has filed claims that have won or set­
tled. Further, no prior court has held him in violation of
Rule 11. There is simply no record that Appellant has rou­
tinely filed frivolous claims.
Lastly, on January 23, 2017 the District Court
suggested that the pro se plaintiffs retain an attorney in
this matter. The Appellant followed the District Court’s
advice and retained an attorney who filed an appearance
on his behalf on August 7, 2017. The attorney requested
leave to amend the Complaint in both the District Court
and the Appellate Court. Both courts ignored counsel’s
request. It begs the question why the court suggested
retaining an attorney and then not allow that attorney to
amend the Complaint and cure whatever defects that may
have caused the court to mischaracterize the Complaint. If
a reasonable person could misinterpret the Complaint as
the Appellate Court did - then justice demanded granting
the requests by the Appellant’s attorney to amend the
Complaint prepared pro se and cure the misunderstanding.
THIS CASE PRESENTS A RECURRING QUESTION
OF EXCEPTIONAL IMPORTANCE WARRANTING
THE COURT’S IMMEDIATE RESOLUTION
This case raises a question of vital importance
concerning the three-way circuit split over the analysis of
domestic injury in an extraterritorial RICO claim. Of the

26
2,372 civil RICO cases filed in federal courts in 2018; 560
involved extraterritorial claims. Within those the
Appellees in the instant case and their associates in their
RICO enterprise were the most frequently involved.
Resolving the instant case addresses one of the largest
RICO enterprises in American history affecting nearly 70%
of Americans.
According to the latest Gallup Poll in March 2019,
over 192 million Americans support Israel; of whom
111,932,100 are Protestants, 45,126,000 are Catholics,
29,161,860 are unaffiliated, and 5,905,620 are Jewish. The
Fundraising Appellees act as gatekeepers for American
donations from Christian and Jewish communities that get
transferred to Israel. In their own fundraising materials
and tax returns, the Appellees show that they collect over
$3 billion per year in donations from millions of wellmeaning American donors across the United States and
then steer donations to help finance their racketeering
scheme. The Complaint alleges that the Appellant has
himself fallen victim to this Fundraising prong of the
Appellees’ scheme prior to being aware of the fraud that
the Fundraising Appellees perpetrate upon the American
people.
Records from the Israeli Ministry of Justice show
that only $2 billion reaches Israel each year - of which less
than 25% actually reaches the needy populations for whom
the funds were raised in the United States. The Israeli
population is half the size of New York City with a fraction
of the social welfare needs as in New York. The donations
raised from millions of Americans by the Fundraising
Appellees over the past ten years was enough to pay off
every debt of every Israeli in the Debt Collections Office,
eliminate poverty in Israel and give a $10,000 check to
every Israeli child for education. However, child poverty
has doubled in Israel over the past 10 years while the
Fundraising Appellees raise $3 billion annually in the

27
United States. It begs the question - What did the
Appellees in this matter do with all those billions of
dollars? The Appellant fully intends to show in court
exactly how the Appellees defraud Americans out of billions
of dollars in donations plus billions more in their extortion
scheme if allowed his 14th amendment right to have his day
in court.
In addition to the 192 million Americans who get de­
frauded under the Fundraising prong of this scheme, in­
cluding the Appellant, another 80,000 American citizens
have fallen victim to the Extortion prong of the scheme, in­
cluding the Appellant. In this prong of the scheme, the
Debt Appellees receive kick-backs from the Fundraising
Appellees to create fictitious debts for victims to strongarm them and their families out of everything they own.
Along the way, victims get strong-armed into paying for
“services” by the Fundraising Appellees - though
“services” were already covered by donations raised from
over 192 million Americans in the United States. These
“services” in addition to “interest” and “penalties” unlaw­
fully enrich the Appellees by billions more dollars.
The outcome of this matter involving the Appellant’s
complaint as a victim of both prongs of the Appellees’ pat­
tern of racketeering affects over 192 million Americans
who reside in the United States and abroad. The open is­
sue is how many of these Americans can claim domestic in­
jury to this international scheme. This case is an ideal ve­
hicle for resolving the three-way circuit conflict over the
correct domestic injury analysis and whether it should be
based on the location of the property, location of the plaintiff s residence, or the origin of the injury (predicate act).

28
CONCLUSION
The petition for writ of certiorari should be granted.
Respectfully Submitted
Richard David Weisskopf
Appellant, pro se
June 24, 2019

